                        Opportunities Exist to Improve
                           Tax Software Packages

                                   January 2005

                       Reference Number: 2005-40-025




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     January 12, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER
                     COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                  (for) Gordon C. Milbourn III
                                   Assistant Inspector General for Audit
                                   (Small Business and Corporate Programs)

      SUBJECT:                       Final Audit Report - Opportunities Exist to Improve Tax Software
                                     Packages (Audit # 200440028)


      This report presents the overall results of our review to determine whether the
      Internal Revenue Service (IRS) has an effective process to ensure tax return
      preparation software developers are provided with accurate tax law specifications. This
      review is a follow-up to a Treasury Inspector General for Tax Administration report
      issued in December 2003,1 in which we indicated that some Tax Year (TY) 2001 and
      TY 2002 tax returns prepared by the IRS would not allow or incorrectly allowed credits
      and deductions taxpayers may or may not have been entitled to receive.
      In summary, the Congress passed the IRS Restructuring and Reform Act of 1998,2 in
      part, to address paperless tax return filing and set a goal for the IRS to have at least
      80 percent of all tax returns electronically filed (e-filed)3 by the year 2007. To date, the
      IRS has made significant progress attracting taxpayers to e-file. Specifically, taxpayers
      participating in e-file have increased from approximately 19 million in 1997 to
      60.5 million in 2004 (through July). For the 2004 Filing Season,4 the IRS promoted




      1
        Improvements Are Needed to Ensure Tax Returns Are Correctly Prepared at Taxpayer Assistance Centers
      (Reference Number 2004-40-025, dated December 2003).
      2
        Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
      3
        E-file is a way to electronically file a tax return with the IRS using an authorized IRS e-file provider or personal
      computer.
      4
        The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                         2

e-filing as “fast, safe, and accurate” to American taxpayers both in the printed and
electronic media. Also, for the past two filing seasons, the IRS has promoted an easy,
no-cost option for taxpayers to file their tax returns online through its Internet web site,
IRS.gov.
The IRS uses electronic file specifications to program its computers used to prepare
and process e-filed tax returns. The IRS also publishes the electronic file specifications
for the tax return preparation software developers to update their tax return preparation
software. This ensures tax returns prepared by the software will be formatted correctly,
accurate, and accepted for processing by the IRS. The IRS appropriately updated the
electronic file specifications with TY 2003 tax law provisions that included changes to
the capital gains and dividend rates and education incentives known as the Hope and
lifetime learning credits.
However, inaccurate electronic file (programming) specifications used to program and
process TYs 2001 and 2002 tax returns caused systemic errors in some software used
to e-file certain tax returns. The specifications did not include the qualifying relationship
of a brother, sister, niece, or nephew necessary to claim the Child Tax Credit (CTC)5
and the Earned Income Tax Credit (EITC).6 This happened because either the IRS
computer systems or the electronic file specifications provided to tax return preparation
software developers did not contain these relationships. The IRS stated that reviews
were done on the electronic file specifications; however, documentation was not
sufficient to show that reviews relating to these errors were conducted. Also, the IRS
could not provide us with any written procedures and guidelines to ensure electronic file
specifications are correctly updated and consistent between those loaded on IRS
computers used to process e-filed tax returns and those provided to software
developers.
The IRS tests all tax return preparation software used to e-file individual tax returns with
the IRS. The testing is intended to ensure e-filed tax returns can be initially processed
much like tax returns submitted on paper. However, the tests are not created to check
for misapplication of the tax law. Our tests of 5 TY 2003 tax return preparation software
packages resulted in 4 (80 percent) of the 5 packages incorrectly preparing tax returns
based on facts we presented in the tests. In addition, the tax software packages’ own
internal validity checks did not identify the errors.
Between January and July 2004, 60.5 million taxpayers e-filed their tax returns.
However, based on the results of our tests, the risk increases that some e-filed tax
returns may not have been correctly prepared because of the IRS’ current process for
testing tax return preparation software. We recommended the Commissioner, Wage
and Investment (W&I) Division, develop procedures to ensure the electronic file
specifications are reviewed for accuracy and consistency. We also recommended the


5
  The CTC is a refundable credit taxpayers may take to reduce the amount of tax up to $600 in TYs 2001 and 2002
for each qualifying child.
6
  The EITC is a refundable credit established to offset the impact of Social Security taxes on low-income families
and encourage them to seek employment rather than welfare.
                                                          3

Chief Information Officer and the Commissioner, W&I Division, conduct testing, in
addition to the Participants Acceptance Testing System (PATS)7 and System
Acceptability Test (SAT),8 on any tax return preparation software selected by the IRS
before it is to be used by its employees and volunteers to prepare tax returns.
Management’s Response: The IRS agreed with our first recommendation and will
establish written procedures for the reviews of file specifications and develop a plan to
compare the file specifications used by the IRS and provided to software developers.
However, the IRS did not agree with our second recommendation and believes it would
not be feasible to perform additional testing on the tax return preparation software
without impeding the availability of the software products for IRS employees and
volunteers and delaying the processing of tax returns. In addition, the IRS cannot
contractually require that software developers place their products under the IRS’
process for more stringent testing/control. Management’s complete response to the
draft report is included as Appendix V.
Office of Audit Comment: We continue to believe that, when a taxpayer has an IRS
employee or volunteer prepare a tax return, he or she expects that tax return to be
correct. Employees and volunteers receive tax law training, but both rely on the tax
preparation software to interpret information input into the program and prepare an
accurate tax return. We acknowledge that the IRS tests all software to ensure e-filed
tax returns are correctly formatted and meet electronic filing specifications. However,
conducting additional testing to ensure tax preparation software used by IRS employees
and volunteers is error-free will reduce the risk that e-filed tax returns are inaccurate. In
its response, the IRS states one of the electronic filing goals is that tax returns prepared
with software are accurately computed.
The IRS also states it would not be feasible to perform testing on the tax return
preparation software used by its employees and volunteers without delaying the
processing of tax returns. However, during this review, the IRS used our scenarios and
found that 7 (54 percent) of the 13 tax return preparation software packages available
on IRS.gov prepared inaccurate tax returns. We still believe the IRS has an obligation
to perform additional testing, to include conducting risk assessments and testing those
provisions that create the greatest risks, on the software selected for use by its
employees and volunteers. While we still believe our recommendation is worthwhile,
we do not intend to elevate our disagreement concerning this matter to the Department
of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.

7
  The PATS is a requirement for all tax return preparation software developers and transmitters planning to transmit
e-filed individual tax returns to the IRS.
8
  The SAT is the internal testing of a system, such as the Electronic Filing System, to find and resolve any problems
with the system prior to using it.
                         Opportunities Exist to Improve Tax Software Packages




                                                  Table of Contents


Background ............................................................................................... Page 1
Electronic File Specifications Were Correctly Updated
With Tax Year 2003 Tax Law Provisions................................................... Page 3
Inaccurate Electronic File Specifications Caused Systemic
Errors for Tax Years 2001 and 2002 E-Filed Tax Returns ........................ Page 4
         Recommendation 1: .......................................................................Page 9

Current Testing of Tax Preparation Software Does Not
Always Identify Misapplication of the Tax Law .......................................... Page 10
         Recommendation 2: .......................................................................Page 13

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 15
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Tax Year 2003 Tax Law Changes for Individual
Taxpayers ................................................................................................. Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 21
             Opportunities Exist to Improve Tax Software Packages

                             The Congress has required the Internal Revenue Service
Background
                             (IRS) to reach a goal of having 80 percent of all tax and
                             information returns electronically filed (e-filed)1 by the
                             year 2007. To date, the IRS has made significant progress
                             in attracting taxpayers to e-file and continues to promote
                             e-filing as “fast, safe, and accurate.” Taxpayers
                             participating in e-file have increased from approximately
                             19 million in 1997 to 60.5 million in 2004.2
                             As part of the IRS’ strategic plan, its goal is to continue to
                             improve electronic filing, payment, and communication
                             services via the Internet. To help reach this goal for the past
                             two filing seasons,3 the IRS has provided and promoted free
                             online tax preparation and e-filing through commercial tax
                             return preparation companies located on its Internet web
                             site, IRS.gov. This service is made available to at least
                             60 percent of the nation’s taxpayers.4 Eligibility criteria are
                             generally based on income, age, state residency, or military
                             service. In addition, policies related to customer service
                             support options, privacy, and what taxpayers should do if
                             their tax returns are rejected (i.e., not accepted for
                             processing by the IRS because of errors) are made available
                             to taxpayers.
                             The Wage and Investment (W&I) Division and the
                             Modernization and Information Technology Services
                             (MITS) organization are responsible for creating and
                             revising the electronic file specifications (the criteria) used
                             to program the IRS computers to electronically accept and
                             process tax returns. The W&I Division identifies the tax
                             law changes requiring revisions to the electronic file
                             specifications. It provides an information request to the
                             MITS organization outlining the tax law changes; the
                             MITS organization uses this information to revise the
                             electronic file specifications.
                             The electronic file specifications are also published and
                             made available to the tax return preparation software

                             1
                               E-file is a way to electronically file a tax return with the IRS using an
                             authorized IRS e-file provider or personal computer.
                             2
                               As of August 1, 2004.
                             3
                               The filing season is the period from January through mid-April when
                             most individual income tax returns are filed.
                             4
                               Taxpayers access this service through IRS.gov, but file their returns
                             through the commercial tax return preparation companies.
                                                                                                 Page 1
Opportunities Exist to Improve Tax Software Packages

                developers to update their tax return preparation software.
                This ensures the tax returns prepared by the software will be
                formatted correctly, accurate, and accepted for processing
                by the IRS. The IRS will not process (rejects) e-filed tax
                returns that are not submitted in the correct format. The IRS
                identifies the source of the problem using a system of error
                reject codes that identify why a tax return rejected. For
                Tax Year (TY) 2003 tax returns, there were 662 defined
                error reject codes.
                The MITS organization, which includes the office of
                Electronic Tax Administration (ETA), administers the
                E-File Program and provides the electronic mechanisms
                needed for taxpayers, preparers, and practitioners to e-file
                tax returns and make payments. The MITS organization
                also oversees the e-filing systems that receive and process
                tax returns electronically, including the transmission and
                validation of the tax returns. The Submission Processing
                Office in the W&I Division receives, processes, and
                archives all tax and information returns; processes refunds;
                and accounts for all tax revenues.
                The IRS uses the Participants Acceptance Testing System
                (PATS) before the live processing of tax returns to ensure
                (1) returns are transmitted in the correct format and meet the
                IRS’ electronic file specifications, (2) returns have few
                validation or math errors, (3) required fields post to the main
                IRS computer system, and (4) developers and transmitters
                understand the mechanics of IRS e-file. The PATS is a
                requirement for all tax return preparation software
                developers and transmitters5 planning to transmit e-filed
                individual tax returns to the IRS.
                For TY 2003, the IRS required software developers to
                choose from 37 return scenarios to test their tax return
                preparation software, depending on the type(s) of returns
                they prepare and/or transmit. The return scenarios included
                facts needed to prepare forms and schedules accepted for
                e-filing. The IRS checked each test return against an answer
                key to ensure the tax return was in the correct format and
                correctly calculated the expected refund or tax liability.


                5
                  Transmitters receive data from clients and reformat the data, if
                necessary, to meet IRS requirements. Transmitters may also transmit
                tax returns to the IRS.
                                                                              Page 2
                  Opportunities Exist to Improve Tax Software Packages

                                  This review is a follow-up to a Treasury Inspector General
                                  for Tax Administration (TIGTA) report issued in
                                  December 2003,6 in which we indicated that certain
                                  TYs 2001 and 2002 tax returns prepared by IRS employees
                                  might have been incorrect due to systemic errors in tax
                                  return preparation software. Specifically, the software
                                  would not allow or incorrectly allowed credits and
                                  deductions taxpayers may or may not have been entitled to
                                  receive. During that review, we alerted IRS management to
                                  the errors. We did not make any recommendations in that
                                  report to address the problem. Instead, we stated we would
                                  conduct a separate review to evaluate the IRS’ process for
                                  ensuring tax return preparation software used to prepare tax
                                  returns is accurate.
                                  This audit was performed at the IRS Headquarters in
                                  Washington, D.C., and Lanham, Maryland, in the offices of
                                  ETA and Submission Processing during the period
                                  October 2003 through September 2004. The audit was
                                  conducted in accordance with Government Auditing
                                  Standards. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The IRS correctly incorporated the tax law changes into the
Electronic File Specifications
                                  electronic file specifications for all six of the TY 2003 tax
Were Correctly Updated With
                                  law provisions we reviewed.7 These provisions included
Tax Year 2003 Tax Law
                                  changes to the capital gains and dividend rates, the health
Provisions
                                  coverage tax credit, and education incentives known as the
                                  Hope and lifetime learning credits. For example, changes
                                  were made to ensure taxpayers would receive the reduction
                                  in capital gains rates from the 10 and 20 percent rates on the
                                  adjusted net capital gain to 5 and 15 percent, respectively.
                                  The new rates were effective in taxable years ending on or
                                  after May 6, 2003, and beginning before January 1, 2009.
                                  Also, changes were made to allow certain taxpayers to claim
                                  a refundable tax credit of 65 percent of their health
                                  insurance premiums. As stated, it is important that tax law
                                  changes are incorporated into the electronic file
                                  specifications to ensure tax return preparation software

                                  6
                                    Improvements Are Needed to Ensure Tax Returns Are Correctly
                                  Prepared at Taxpayer Assistance Centers (Reference
                                  Number 2004-40-025, dated December 2003).
                                  7
                                    See Appendix IV for the tax law provisions reviewed.
                                                                                              Page 3
                   Opportunities Exist to Improve Tax Software Packages

                                   produces returns that are formatted correctly, accurate, and
                                   accepted by the IRS for processing.
                                   Taxpayers that qualified for the Child Tax Credit (CTC)8
Inaccurate Electronic File
                                   and Earned Income Tax Credit (EITC)9 for TYs 2001 and/or
Specifications Caused Systemic
                                   2002 might not have received the credits if the qualifying
Errors for Tax Years 2001 and
                                   child(ren) was a brother, sister, niece, or nephew. In
2002 E-Filed Tax Returns
                                   addition, certain e-filed tax returns were rejected because of
                                   CTC or EITC errors. This happened because either the IRS
                                   computer systems or the electronic file specifications
                                   provided to tax return preparation software developers did
                                   not contain these relationships.
                                   Electronic file specifications did not include all
                                   definitions of a qualifying child for the CTC when
                                   processing TY 2001 e-filed tax returns
                                   The electronic file specifications the IRS used to program its
                                   computer systems to process TY 2001 tax returns allowed
                                   taxpayers to claim the CTC only for a dependent who was a
                                   son, daughter, grandchild, or foster child. However, the
                                   electronic file specifications provided to tax return
                                   preparation software developers correctly instructed
                                   programmers to also allow the CTC for the additional
                                   dependent relationships of brother, sister, niece, or nephew.
                                   Therefore, if taxpayers e-filed their tax returns and claimed
                                   the CTC with the qualifying dependent being a brother,
                                   sister, niece, or nephew, the IRS rejected the tax returns
                                   because its computers were not programmed to accept these
                                   relationships.
                                   According to tax instructions used to develop the file
                                   specifications, to claim the CTC, the taxpayer must have a
                                   qualifying child who could be claimed as a dependent, was
                                   under age 17 at the end of the tax year, and was a United
                                   States (U.S.) citizen or resident.10 Specifically, a dependent
                                   included:


                                   8
                                     The CTC is a refundable credit taxpayers may take to reduce the
                                   amount of tax up to $600 in TYs 2001 and 2002 for each qualifying
                                   child.
                                   9
                                     The EITC is a refundable credit established to offset the impact of
                                   Social Security taxes on low-income families and encourage them to
                                   seek employment rather than welfare.
                                   10
                                      In addition to these restrictions, the CTC has certain income
                                   limitations.
                                                                                                    Page 4
Opportunities Exist to Improve Tax Software Packages

                   •   A child, grandchild, great-grandchild, stepchild, etc.
                   •   A brother, sister, half-brother, half-sister,
                       stepbrother, or stepsister; a brother or sister of the
                       taxpayer’s father or mother; or a son or daughter of
                       the taxpayer’s brother or sister.
                   •   A foster child who must live with the taxpayer as a
                       member of his or her household for the entire year.
                Electronic file specifications did not include all
                definitions of a qualifying child for the EITC when
                processing TY 2001 e-filed tax returns
                The electronic file specifications provided to tax return
                preparation software developers and those used to program
                the IRS computer systems did not instruct programmers to
                include the EITC qualifying child relationship of a brother,
                sister, niece, or nephew. Instead, IRS computers were
                programmed to group these relationships under the foster
                child instead of listing them separately. As a result, the IRS
                rejected tax returns for taxpayers that e-filed tax returns
                claiming the EITC for these qualifying relationships.
                According to tax instructions used to develop the file
                specifications, to claim the EITC, a taxpayer must have a
                qualifying child who lived with the taxpayer in the U.S. for
                more than one-half of the year and, at the end of the year,
                was under age 19, or was under age 24 and a student, or was
                permanently and totally disabled (regardless of age). If a
                qualifying child was a foster child, he or she must have
                lived with the taxpayer all year. For TY 2001, a qualifying
                child for the EITC was:
                   •   A son, daughter, adopted child, grandchild, or
                       stepchild.
                   •   A foster child. The foster child is any child the
                       taxpayer cared for as his or her own and who is one
                       of the following:
                       (a) A brother, sister, stepbrother, or stepsister.
                       (b) A descendant (such as a child, including an
                           adopted child) of the taxpayer’s brother, sister,
                           stepbrother, or stepsister.


                                                                        Page 5
Opportunities Exist to Improve Tax Software Packages

                       (c) A child placed with the taxpayer by an
                           authorized placement agency.
                Correction of the electronic file specification errors was
                not completely effective and timely
                A tax return preparation software developer identified the
                EITC error and alerted the IRS. When the IRS was
                researching and correcting that error, it identified the CTC
                error. On December 5, 2002, the IRS revised the electronic
                file specifications to include the qualifying relationships of
                brother, sister, niece, and nephew for the EITC. The IRS
                published the corrections so tax return preparation software
                developers could revise their software in time to ensure
                e-filed TY 2002 tax returns would be correctly processed for
                these relationships. However, the IRS did not publish
                revised electronic file specifications for these same
                relationships for the CTC error until January 7, 2003. Since
                the CTC corrections occurred after the software was already
                released for use, a software update was necessary.
                Typically, software updates are made available online to
                anyone using the software. Before a user’s tax return is
                finalized or transmitted to the IRS, the software will
                generate a message suggesting that the user determine
                whether updates to the software are available. If updates are
                available, they are downloaded to the user’s computer
                system. These updates could include changes initiated by
                the tax return preparation software developer to improve the
                software or changes initiated by the IRS because of
                revisions to the electronic file specifications or changes in
                the tax law.
                Some tax return preparation software developers might have
                included the relationships of a brother, sister, niece, or
                nephew to claim the CTC and EITC in their return tax
                preparation software. Tax returns e-filed using these
                software packages might not have been rejected. However,
                for those tax return preparation software developers that did
                not, the tax returns would have been rejected.




                                                                       Page 6
Opportunities Exist to Improve Tax Software Packages

                The TYs 2001 and 2002 software used by the IRS at the
                Taxpayer Assistance Centers (TAC)11 and Volunteer Income
                Tax Assistance (VITA)12 sites did not include the qualifying
                relationships of a brother, sister, niece, or nephew to claim
                the CTC and EITC. This software was not adequately
                updated. The TY 2002 qualifying relationships were
                updated for the EITC but not the CTC. The TY 2001
                qualifying relationships were not updated for either.
                The tax return preparation software developer that provided
                the software used by the IRS stated that the January 7, 2003,
                revised electronic file specifications came too late for it to
                revise its software; it had already released numerous
                versions, including the one the IRS was using. The tax
                return preparation software developer instead offered a
                solution that would require IRS employees and VITA
                Program volunteers to manually override the software.
                The IRS issued a memorandum to its employees and
                volunteers on February 25, 2003, instructing them to ask
                taxpayers if they cared for a brother, sister, niece, or nephew
                as their own child. If taxpayers answered yes, the
                employees and volunteers were instructed to manually
                override the TY 2002 software to correctly apply the CTC.
                Employees and volunteers were also advised that they, “. . .
                may want to review returns that were completed prior to our
                knowledge of this problem and advise taxpayers accordingly
                if an amended return is needed. The number of taxpayers
                affected by this should be minimal per site.”
                Since the IRS does not maintain a listing of rejected e-filed
                returns, we are unable to identify all taxpayers affected by
                the errors identified above. However, we have discussed
                with management the necessity of ensuring IRS employees
                and VITA Program volunteers are reminded to use the
                CTC manual solution when preparing TY 2002 returns for
                taxpayers that claim their brother, sister, niece, or nephew.



                11
                   The TACs are approximately 400 IRS offices located across the U.S.
                that exist primarily to serve taxpayers that seek face-to-face tax
                assistance.
                12
                   The VITA Program provides free Federal tax return preparation and
                e-filing to certain individual taxpayers, including low-income, elderly,
                disabled, and limited-English proficient taxpayers.
                                                                                 Page 7
Opportunities Exist to Improve Tax Software Packages

                Tests and current controls did not identify the
                inconsistencies found in the electronic file specifications
                The PATS and System Acceptability Test (SAT)13 used to
                test the electronic file specifications did not identify the
                TYs 2001 and 2002 CTC and EITC errors in the electronic
                file specifications. Internal guidelines require reviews and
                approvals to be completed during the development of the
                electronic file specifications. Any revisions are to be
                discussed and tested to ensure compliance with program
                objectives. In addition, employees stated that reviews are
                conducted and are standard operating procedures. However,
                documentation was not sufficient to show that reviews were
                conducted on the electronic file specifications after their
                development or relating to the errors identified in this
                review.
                Also, the IRS could not provide us with any written
                procedures and guidelines to ensure electronic file
                specifications are correctly updated and consistent between
                those loaded on IRS computers used to process e-filed tax
                returns and those provided to tax return preparation software
                developers. This increases the risk that returns prepared
                using tax return preparation software are incorrect or may be
                rejected when filed. Government Accountability Office
                standards require that agencies assess and manage risks
                associated with actions they take to achieve their goals. The
                guidelines include reviews as a method to assess risks.
                Effect on taxpayers and the IRS
                Because of the issues identified above, tax returns prepared
                using the tax return preparation software (they can be either
                e-filed or submitted on paper) could be incorrect. In
                addition, taxpayers might have submitted their tax returns
                on paper after their e-filed tax returns were rejected because
                of the CTC or EITC errors.
                Neither the IRS nor we can determine the number of
                taxpayers that filed tax returns that included a CTC and/or
                EITC claim for the qualifying relationships affected because
                the IRS does not retain the complete records of the rejected


                13
                  The SAT is the internal testing of a system, such as the Electronic
                Filing System, to find and resolve any problems with the system prior to
                using it.
                                                                                Page 8
Opportunities Exist to Improve Tax Software Packages

                tax returns. As a result, we cannot quantify the impact on
                individual taxpayers (e.g., the number of qualified taxpayers
                who were denied the credit(s) when e-filing or, after having
                their tax returns rejected, had to submit their returns on
                paper to receive the credit(s)). However, the 2000 Census
                shows that more than 3 million brothers and sisters made up
                the American family household. Another 4.9 million “other
                relatives” lived in family households.
                We examined the IRS’ TYs 2001 and 2002 databases of
                rejected e-filed returns. We identified 56,143 taxpayers
                whose e-filed TY 2001 tax returns were rejected because of
                CTC and EITC errors. Of these, 7,418 (13 percent)
                taxpayers resubmitted their tax returns on paper. In
                TY 2002, 7,881 (14 percent) of 55,926 taxpayers also
                resubmitted their tax returns on paper after their e-filed tax
                returns were rejected for the same errors. These returns
                were rejected because of age, birth date, and dependent
                relationship issues. Some of the rejected tax returns were
                resubmitted from 2 to 41 times.
                According to the IRS, it costs $2.86 to process tax returns
                submitted on paper compared to $.56 to process an e-filed
                return. Instead of costing the IRS $4,154 in TY 2001 and
                $4,413 in TY 2002 to electronically process the tax returns,
                we estimate it cost the IRS $21,215 and $22,540,
                respectively, to process the returns submitted on paper.
                Although these numbers are minimal when compared to the
                approximately 60.5 million e-filed returns, our analyses
                were limited to 2 of 662 reject codes that best captured the
                relationship errors we identified. These trends could hinder
                the IRS’ efforts to achieve the Congressionally mandated
                goal of 80 percent of all tax returns e-filed by 2007.

                Recommendation

                The Commissioner, W&I Division, should:
                1. Develop procedures to ensure the electronic file
                   specifications are reviewed for accuracy and
                   consistency. The review should include a comparison of
                   the file specifications used by the IRS and the file
                   specifications provided to the tax return preparation
                   software developers to ensure the instructions are

                                                                        Page 9
                  Opportunities Exist to Improve Tax Software Packages

                                     accurately interpreted and the specifications are correct
                                     and consistent.
                                  Management’s Response: The Director, Submission
                                  Processing, W&I Division, will develop a desk guide that
                                  will establish written procedures for these reviews. The
                                  Director will also work with the MITS organization to
                                  document existing practices of coordinating the review of
                                  file specifications as well as develop a cross-reference plan
                                  to compare the file specifications used by the IRS and
                                  provided to software developers.
                                  The PATS testing for tax return preparation software is
Current Testing of Tax
                                  intended to ensure e-filed tax returns can be initially
Preparation Software Does Not
                                  processed much like tax returns submitted on paper. The
Always Identify Misapplication
                                  testing includes scenarios to ensure the correct application
of the Tax Law
                                  of the law. For example, the tests include validating certain
                                  dependent relationships claimed by taxpayers to ensure they
                                  qualify for credits and validating the filing statuses used to
                                  calculate the amount of taxes owed. All facts in the
                                  scenarios meet tax law requirements. However, the test
                                  scenarios are not created to test for misapplication of the tax
                                  law or to test for all situations and conditions relating to the
                                  laws. The scenarios do not include facts that conflict with
                                  the law and would prevent a taxpayer from receiving a
                                  credit.
                                  For example, we tested five TY 2003 tax return preparation
                                  software packages. Four of the five were accessible on
                                  IRS.gov and the remaining package was used by the IRS’
                                  TACs and VITA sites. We tested these packages to
                                  determine if they correctly applied the tax laws involving
                                  income reporting, filing status, exemptions, and the EITC
                                  and CTC. Four (80 percent) of the 5 packages incorrectly
                                  prepared the tax returns based on the facts TIGTA auditors
                                  presented in scenarios to test the software. Additionally, the
                                  validity checks included in the four software packages did
                                  not identify these errors. Using 6 scenarios with income
                                  ranging from $25,000 to $75,000 for taxpayers filing as
                                  Single or Head of Household, we found:
                                     •   Four (80 percent) of the 5 software packages
                                         incorrectly allowed tax benefits to taxpayers that
                                         filed as Head of Household and claimed as a
                                         dependent a brother or sister who lived in the home
                                         for 4 months. The law requires a child to live in the
                                                                                          Page 10
Opportunities Exist to Improve Tax Software Packages

                       home more than one-half of the year to qualify for
                       Head of Household.
                   •   Four (80 percent) of the 5 software packages
                       incorrectly allowed taxpayers to receive dependency
                       exemptions and the CTC for foster children living in
                       the home less than 12 months. The law requires that
                       a foster child live in the home 12 months to be
                       claimed as a dependent. Current Census data show
                       that, in Calendar Year 2000, more than 6 million
                       “nonrelatives” lived in family households.
                       Nonrelatives include foster children.
                   •   Two (40 percent) of the 5 software packages did not
                       correctly calculate estimated tax penalties for
                       taxpayers whose income was $75,000. Generally, a
                       taxpayer owes an estimated tax penalty if the total of
                       his or her withholding and estimated tax payment(s)
                       is not at least 90 percent of the tax for the current tax
                       year or 100 percent of the prior year’s tax,
                       whichever is smaller.
                We shared our test results with two of the four tax return
                preparation software developers whose software was tested.
                They confirmed the test results and have taken actions to
                correct the problems. The corrections will be implemented
                for the 2005 Filing Season. At the request of the IRS, we
                did not contact the other two tax return preparation software
                developers directly but provided our results to the IRS for it
                to contact the developers. We do not know what actions, if
                any, the other two tax return preparation software
                developers have taken or plan to take to correct the
                identified problems.
                We also provided our six test scenarios to the IRS. The IRS
                chose 2 of the 6 test scenarios and, after making
                modifications to our test scenarios, found the same or
                similar problems in 7 (54 percent) of the 13 tax return
                preparation software packages it tested.
                When programming tax return preparation software,
                developers have to interpret a myriad of tax law
                requirements to ensure their software will correctly prepare
                tax returns. Because of the complexity of the tax law,
                neither the IRS nor the tax return preparation software
                developers can test for all situations and conditions. In fact,
                                                                        Page 11
Opportunities Exist to Improve Tax Software Packages

                the IRS advises tax return preparation software developers
                that, since every conceivable condition cannot be
                represented in the PATS scenario tests, they may want to
                test any conditions they feel are appropriate once they have
                passed the required tests.
                However, most taxpayers have limited tax knowledge and
                rely on the competency of tax return preparers or tax return
                preparation software. A person or company that prepares a
                computer program and sells it to a taxpayer to use in
                preparing the taxpayer’s income tax return may be
                considered an income tax return preparer.14 All tax return
                preparers must comply with certain requirements in the
                actual preparation of a return for a fee, including furnishing
                a copy of the return to the taxpayer. Failure to satisfy these
                obligations can result in the imposition of a penalty against
                the return preparer. Return preparers are also subject to
                penalties if they act in negligent or intentional disregard of
                Department of the Treasury or IRS rules and regulations.
                The oversight of preparers has been a concern of the
                National Taxpayer Advocate (NTA). In the NTA 2003
                Annual Report to Congress, the NTA expressed concern for
                the oversight and regulation of tax return preparers, other
                than attorneys, Certified Public Accountants, and enrolled
                agents15 that are already regulated in some form.
                Helping taxpayers understand and meet their tax obligations
                is essential to voluntary compliance. Considering the IRS’
                goal of having 80 percent of tax returns e-filed by 2007, the
                IRS should develop a program to provide reasonable
                assurance that tax return preparation software used to e-file
                returns prepares accurate tax returns with the correct amount
                of tax.
                The importance of tax return preparation software will
                increase as more taxpayers choose to e-file, whether they
                choose to prepare their own tax returns or pay preparers to
                prepare their tax returns and e-file. The complexity of the
                tax law presents a significant challenge. Testing for all
                conditions and situations for every tax provision is not

                14
                  Revenue Ruling 85-189 (1985-2 C.B. 341, 1985-48 I.R.B. 8).
                15
                  An enrolled agent is a tax professional who has demonstrated special
                competence in tax matters, applied for enrollment, and been issued an
                enrollment card.
                                                                              Page 12
Opportunities Exist to Improve Tax Software Packages

                feasible. However, conducting risk assessments and testing
                for those provisions creating the greatest risks would help
                ensure tax returns are prepared correctly and reduce the
                number of tax returns rejected.
                Effect on taxpayers
                As of July 2004, there had been a 15.7 percent increase in
                the number of e-filed returns compared to the same period
                last year, from 52.3 million to 60.5 million. The increase is
                a positive step toward the IRS accomplishing its
                Congressionally mandated goal of 80 percent of all tax
                returns e-filed by 2007. However, based on the results of
                our tests, the risk increases that some of the 60.5 million
                taxpayers’ e-filed tax returns may not have been correctly
                prepared because of the IRS’ current process for testing tax
                return preparation software, resulting in the improper
                amount of calculated tax.

                Recommendation

                The Chief Information Officer and the Commissioner,
                W&I Division, should:
                2. Conduct testing, in addition to the PATS and SAT, on
                   any tax return preparation software selected by the IRS
                   before it is used by its employees and volunteers to
                   prepare tax returns to ensure tax returns prepared by the
                   IRS and its volunteers are accurate.
                Management’s Response: The IRS did not agree with this
                recommendation and stated it would not be feasible to
                perform additional testing on the tax return preparation
                software without impeding the availability of the software
                products for IRS employees and volunteers and delaying the
                processing of tax returns. Also, the IRS cannot
                contractually require that software developers place their
                products under the IRS configuration management process,
                where software and documentation baselines must be
                established and strictly controlled, because this would
                require delivery to the IRS of all of their programming
                functional specification and design documentation.
                Office of Audit Comment: We continue to believe that,
                when a taxpayer walks into a TAC or VITA site, he or
                she expects the IRS employee or volunteer to prepare a
                                                                      Page 13
Opportunities Exist to Improve Tax Software Packages

                correct tax return. Employees and volunteers receive tax
                law training, but both rely on the tax preparation software to
                interpret information input into the program and prepare an
                accurate tax return. We acknowledge that the IRS tests all
                software to ensure e-filed tax returns are correctly formatted
                and meet electronic filing specifications. However,
                conducting additional testing to ensure tax preparation
                software used by IRS employees and volunteers is error-free
                will reduce the risk that e-filed tax returns are inaccurate. In
                its response, the IRS states one of the electronic filing goals
                is that tax returns prepared with software are accurately
                computed.
                The IRS also states it would not be feasible to perform
                testing on the tax return preparation software used by its
                employees and volunteers without delaying the processing
                of tax returns. However, during this review, the IRS used
                our scenarios and found that 7 (54 percent) of the 13 tax
                return preparation software packages available on IRS.gov
                prepared inaccurate tax returns. We still believe the IRS has
                an obligation to perform additional testing, to include
                conducting risk assessments and testing those provisions
                that create the greatest risks, on the software selected for use
                by its employees and volunteers.




                                                                        Page 14
                     Opportunities Exist to Improve Tax Software Packages

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine whether the Internal Revenue Service (IRS)
has an effective process to ensure tax return preparation software developers are provided with
accurate tax law specifications. Specifically, we evaluated the process the IRS uses to
communicate with tax return preparation software developers and transmitters during the
certification process and how employees are informed of updates and changes to procedures
required to prepare tax returns at the Taxpayer Assistance Centers (TAC)1 and Volunteer Income
Tax Assistance (VITA)2 sites. To achieve this objective, we:
I.      Determined if the electronic file specifications allow for the preparation of correct tax
        returns and permit transmission and acceptance with correct posting to the IRS Master
        File.3
        A.       Developed test scenarios relating to dependency, the Child Tax Credit (CTC),4 the
                 Earned Income Tax Credit (EITC),5 and filing status.
        B.       Tested five tax return preparation software packages. Four of the 5 were
                 judgmentally selected from a population of 16 software packages promoted on the
                 IRS Internet web site, IRS.gov. The remaining software package was selected
                 because it was used by the IRS at TACs and VITA sites. We selected the
                 packages because they were familiar and were included in a prior Treasury
                 Inspector General for Tax Administration (TIGTA) report dated December 2003.6
        C.       Determined if the electronic file specifications were upgraded with the significant
                 Tax Year (TY) 2003 tax law provisions identified in a prior TIGTA report.7
II.     Determined the effect of systemic errors identified in the TYs 2001 and 2002 electronic
        file specifications.



1
  The TACs are approximately 400 IRS offices located across the United States that exist primarily to serve
taxpayers that seek face-to-face tax assistance.
2
  The VITA Program provides free Federal tax return preparation and electronic filing to certain individual
taxpayers, including low-income, elderly, disabled, and limited-English proficient taxpayers.
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
4
  The CTC is a refundable credit taxpayers may take to reduce the amount of tax up to $600 in Tax Years 2001 and
2002 for each qualifying child.
5
  The EITC is a refundable credit established to offset the impact of Social Security taxes on low-income families
and encourage them to seek employment rather than welfare.
6
  Improvements Are Needed to Ensure Tax Returns Are Correctly Prepared at Taxpayer Assistance Centers
(Reference Number 2004-40-025, dated December 2003).
7
  Forms and Publications for Tax Year 2003 Properly Explain Specific Tax Law Changes Affecting Individual
Taxpayers (Reference Number 2004-40-069, dated March 2004).
                                                                                                          Page 15
                  Opportunities Exist to Improve Tax Software Packages

III.   Discussed with tax return preparation software developers the errors in the electronic file
       specifications and their processes to develop and update their tax return preparation
       software.




                                                                                           Page 16
                 Opportunities Exist to Improve Tax Software Packages

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Deborah Drain, Lead Auditor
Jack Forbus, Senior Auditor
Jerome Antoine, Auditor
Kathy Henderson, Auditor
Blanche Lavender, Database Administrator
James Adkisson, Information Technology Specialist
Robert Carpenter, Information Technology Specialist




                                                                                         Page 17
                 Opportunities Exist to Improve Tax Software Packages

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner for Operations Support OS
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Electronic Tax Administration, Information Technology Services OS:CIO:I:ET
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
    Senior Operations Advisor, Wage and Investment Division SE:W:S
    TIGTA Liaison, Chief Information Officer OS:CIO:R:PM:PO




                                                                                     Page 18
                        Opportunities Exist to Improve Tax Software Packages

                                                                                           Appendix IV


                    Tax Year 2003 Tax Law Changes for Individual Taxpayers

Jobs and Growth Tax Relief Reconciliation Act of 20031
       •   Title III, Reductions in Taxes on Dividends and Capital Gains
           Sec. 301. Reduction in capital gains rates for individuals; repeal of 5-year holding period
           requirement.
                The 10 and 20 percent rates on the adjusted net capital gain are reduced to 5 and
                15 percent, respectively, effective in taxable years ending on or after May 6, 2003,
                and beginning before January 1, 2009.
                For taxable years that include May 6, 2003, the lower rates apply to amounts
                properly taken into account for the portion of the year on or after that date. This
                generally has the effect of applying the lower rates to capital assets sold or
                exchanged (and installment payments received) on or after May 6, 2003.
           Sec. 302. Dividends of individuals taxed at capital gains rates.
                  Dividends received by an individual shareholder from domestic corporations are
                  taxed at the rates for net capital gain (5 or 15 percent per the above reduction in the
                  capital gains rate), effective for taxable years beginning after December 31, 2002.
Trade Act of 20022
       •   Title I, Trade Adjustment Assistance Program
           Sec. 124. Demonstration project for alternative trade adjustment assistance for older
           workers.
                  This section requires the establishment of an alternative trade adjustment assistance
                  program for older workers. Workers participating in the program are eligible to
                  receive a credit for health insurance costs for a period of up to 2 years.
       •   Title II, Credit for Health Insurance Costs of Eligible Individuals
           Sec. 201. Credit for health insurance costs of individuals receiving a trade readjustment
           allowance or a benefit from the Pension Benefit Guaranty Corporation.
                  This section amends Internal Revenue Code (I.R.C.) Section (§) 6429 to cover the
                  Trade Adjustment Assistance Health Insurance Credit. It allows certain taxpayers
                  to claim a refundable tax credit of 65 percent of their health insurance premiums.
                  This is limited to a select number of taxpayers and became effective for premiums

1
    Pub. L. No. 108-27, 117 Stat. 752.
2
    Pub. L. No. 107-210, 116 Stat. 38.
                                                                                                  Page 19
                      Opportunities Exist to Improve Tax Software Packages

               paid in December 2002. The legislation also provides for taxpayers to receive the
               credit in advance.
        Sec. 202. Advance payment of credit for health insurance costs of eligible individuals.
               This section amends I.R.C. § 7527 to cover the Advance Payment of Trade
               Adjustment Assistance Health Insurance Credit.
Taxpayer Relief Act of 19973
    •   Title II, Education Incentives
        Sec. 201. Hope and lifetime learning credits.
               We looked only at the lifetime learning credit. Beginning in Tax Year 2003, the
               amount of qualified tuition and related expenses increases from $5,000 to $10,000.
               The credit equals 20 percent of these qualified expenses, with the maximum credit
               being $2,000.




3
 Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).



                                                                                                           Page 20
Opportunities Exist to Improve Tax Software Packages

                                                       Appendix V


   Management’s Response to the Draft Report




                                                           Page 21
Opportunities Exist to Improve Tax Software Packages




                                                       Page 22
Opportunities Exist to Improve Tax Software Packages




                                                       Page 23
Opportunities Exist to Improve Tax Software Packages




                                                       Page 24
